                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT 'MEMORANDUM

 Case Number: Al1020P09                                                                       Page 1 of 1




                A university 1 completed an investigation into an allegation of data falsification by the
         Subject? The investigation committee concluded that the Subject committed research
         misconduct by falsifying data in a research publication. 3 This research was not supported by
         NSF, and the university found no evidence that NSF proposals submitted by the Subject
         contained fabricated or falsified data.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
